No. 20-6093

In The

Supreme Court of tfje Untteb States
Hany Abutaleb,
Petitioner,
v.
Mona Abutaleb
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eighth Circuit
PETITION FOR REHEARING

RECEIVED
MAR - 8 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

TABLE OF CONTENTS
Page(s)

PETITION FOR REHEARING.
GROUNDS FOR REHEARING
CONCLUSION..........................
CERTIFICATE
EXHIBITS 1-4..........................

(i)

1
1
2
3

1

PETITION FOR REHEARING
Pursuant to Rule 44.2, and based on intervening
circumstances of a substantial or controlling effect,
Petitioner Hany Abutaleb respectfully petitions for
rehearing of the Court’s order denying certiorari in
this case.
GROUNDS FOR REHEARING
I, Hany Abutaleb, hereby apply with this petition of
mine asking you to reconsider the ruling on my case
20-6093. The court erred on their ruling due to
false testimony of ex-wife according to the following:
1- She did not disclose in Aug 2019 trial her inheritance
from her retired general late father in 2017. Retired
general receives significant retirement pension.
2- She did not disclose her bank accounts in Egypt. EXl
3- She claimed that I received a proceed of my non-marital
Orabi land sale over $700K ($13M L.E) on the contrary
I sold this land to my brothers in 2016 for $5000
($100,000 L.E) EX3 as a compensation for their
loss in family home that was sold by ex-wife and
her father in 2006 and deposited the proceed in her
personal account in Misr Bank 870,000 L.E ($174,000) in
Egypt. Please see EXl showing her bank account
and lawsuit in Egypt EX2.
4- She did not disclose her purchase for Town home in
Manhattan IL before the trial in August 2019 EX4.
5- She traveled to Egypt with our kids under her
custody in Sep 2020 and has not come back yet.
My relatives informed me that she purchased a villa
in Cairo which is indication of her wealth which she
did not disclose in the trial in August 2019. She caused
delay to my kids schooling in college and High School.
All documents evidencing the foregoing.

2

CONCLUSION
The petition for rehearing should be granted.
Respectfully submitted,
&

CUUfl' Qj^ctcutUa.

Hany Abutaleb
CERTIFICATE
I hereby certify this petition of rehearing
is presented in good faith and not for delay, and
that it is restricted to the ground specified in
Supreme Court Rule 44.2.

tyoJUff' OMutcUda,

Additional material
from this filing is
available in the
Clerk's Office.

